No. 20-900
IN THE

Supreme Court of the United States
SHELL OIL PRODS. CO., L.L.C., ET AL., PETITIONERS
v.
STATE OF RHODE ISLAND, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
BRIEF OF RESPONDENT
STATE OF RHODE ISLAND
IN OPPOSITION
Victor M. Sher
Matthew K. Edling
Martin D. Quiñones
Katie H. Jones
Sher Edling LLP
100 Montgomery St., Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com
matt@sheredling.com
marty@sheredling.com
katie@sheredling.com

Neil F.X. Kelly, Counsel of Record
Assistant Attorney General
Tricia O’Hare Jedele
Alison Hoffman
Special Assistant Attorneys General
State of Rhode Island
Office of The Attorney General
150 South Main Street
Providence, RI 02903
nkelly@riag.ri.gov
tjedele@riag.ri.gov
ahoffman@riag.ri.gov

Counsel for Respondent – State of Rhode Island

QUESTION PRESENTED
Whether 28 U.S.C. 1447(d) authorizes a court of appeals to review a remanding
district court’s rejection of each and every ground asserted for removal, when removal
was premised in part on meritless federal-officer jurisdiction (28 U.S.C. 1442) or civilrights jurisdiction (28 U.S.C. 1443).

1

ARGUMENT
Petitioners argue that this case presents the same question as BP p.l.c. v.
Mayor and City Council of Baltimore, No. 19-1189. Respondent agrees that the same
question is presented. Accordingly, respondent requests that the Petition should be
held pending the decision in Baltimore.
If, for any reason, the Court does not dispose of the issue presented in
Baltimore, respondent maintains that certiorari is not warranted in this case and will
file a supplemental Brief in Opposition at that time.

Respectfully Submitted,

Victor M. Sher
Matthew K. Edling
Martin D. Quiñones
Katie H. Jones
SHER EDLING LLP
100 Montgomery St., Suite 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com

/s/ Neil F.X. Kelly
Neil F.X. Kelly
Counsel of Record
Tricia O’Hare Jedele
Alison Hoffman
STATE OF RHODE ISLAND
Office of The Attorney General
150 South Main Street
Providence, RI 02903
nkelly@riag.ri.gov
April 5, 2021

2

